OIG Investigative Reports, New Jersey Man Pleads Guilty In Manhattan Federal Court to Stealing Social Security Benefits
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney
Southern District of New York
FOR IMMEDIATE RELEASE
SEPTEMBER 30, 2010
CONTACT:    U.S. ATTORNEYS OFFICE
YUSILL SCRIBNER,
REBEKAH CARMICHAEL,
JANICE OH
PUBLIC INFORMATION OFFICE
(212) 637-2600
DOE OIG
CATHERINE GRANT
(202) 245-7023
SSA
EDWARD RYAN
(212) 264-2500
NEW JERSEY MAN PLEADS GUILTY IN MANHATTAN FEDERAL COURT
TO STEALING SOCIAL SECURITY BENEFITS
PREET BHARARA, the United States Attorney for the
Southern District of New York, BRIAN HICKEY, Special-Agent-in-
Charge of the Northeast Region of the U.S. Department of
Education, Office of the Inspector General, and EDWARD J. RYAN,
Special-Agent-in-Charge of the New York Field Division of the
Social Security Administration ("SSA"), announced today that
WILLIAM JENKINS pled guilty in Manhattan federal court to
stealing his deceased mother’s social security benefits.
According to the Information to which JENKINS pled
guilty before U.S. District Court Judge JED S. RAKOFF, the
criminal Complaint previously filed in this case, and statements
made during the guilty plea proceeding:
JENKINS, 53, of Jackson, New Jersey, had access to his
mother’s bank account into which the SSA direct deposited her
monthly social security benefits. After failing to notify the
SSA of his mother’s death, JENKINS withdrew the monthly benefits
from that account for his personal use from June 2008 through
November 2009. In total, JENKINS stole $30,079.33 in Social
Security benefits.
JENKINS pled guilty to theft of government funds, which
carries a maximum sentence of ten years in prison and a maximum
fine of $250,000, or twice the gross gain or loss from the
offense. In addition, pursuant to JENKINS’s plea agreement with
the Government, JENKINS will forfeit $30,079.33 to the U.S.
Government as full restitution. JENKINS is scheduled to be
sentenced by Judge RAKOFF on February 7, 2011.
Mr. BHARARA praised the investigative work of the U.S.
Department of Education, Office of Inspector General, and the
Social Security Administration.
Assistant U.S. Attorney CARRIE H. COHEN is in charge of
the prosecution.
Top
Printable view
Last Modified: 10/04/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov